Case: 20-114

Document: 13

Page: 1

Filed: 02/28/2020

NOTE: This order is nonprecedential.

QHmteti States: Court of appeals!
for tlje Jfcbcral Circuit
In re: XIAOHUA HUANG,
Petitioner
2020-114
On Petition for Writ of Mandamus to the United States
District Court for the Eastern District of Texas in No. 2:16cv-00947-JRG-RSP, Judge J. Rodney Gilstrap.
ON PETITION

Per Curiam.
ORDER
Xiaohua Huang petitions this court for a writ of man­
damus directing the United States District Court for the
Eastern District of Texas “to reverse the district court’s or­
der which dismissed case 2:16-cv-947.”
Mr. Huang’s petition references two cases, which he
brought in the Eastern District of Texas, Huang v. Huawei
Technologies Co., Ltd., No. 2:15-cv-01413-JRG-RSP, and
Huang v. Huawei Technologies Co., Ltd., No. 2:16-cv00947-JRG-RSP. Mr. Huang previously unsuccessfully ap­
pealed the final judgments in both of those cases. See
Huang v. Huawei Techs. Co., Nos. 2017-1505 et al., slip op.

Appx 1

Case: 20-114

Document: 13

2

Page: 2

Filed: 02/28/2020

IN RE: HUANG

at 13 (Fed. Cir. June 8, 2018); Huang v. Huawei Techs. Co.,
No. 2019-1726, slip op. at 6 (Fed. Cir. Oct. 9, 2019). Man­
dates in both have since issued.
Mr. Huang’s petition is nothing more than an attempt
to relitigate the final judgments that he previously unsuc­
cessfully appealed. Because Mr. Huang clearly does not
have a right to the relief he seeks, the court must deny his
petition. See Cheney v. U.S. Dist. Court for the Dist. of Co­
lumbia, 542 U.S. 367, 380-81 (2004).
Accordingly,
It Is Ordered That:
(1) The petition for writ of mandamus is denied.
(2) All pending motions are denied as moot.
For the Court
February 28. 2020
Date

s24

Appx2

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Case 2:16-cv-00947-JRG-RSP Document 78 Filed 03/18/19 Page 1 of 2 PagelD #: 1662

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
XIAOHUA HUANG
Plaintiff,
v.

§
§
§
§

§

Case No. 2:16-cv-00947-JRG-RSP

§

HUAWEI TECHNOLOGIES CO. LTD.,
et al.,
Defendants.

§
§
§
§

ORDER
The above entitled and numbered civil action was referred to United States Magistrate
Judge Roy S. Payne pursuant to 28 U.S.C. § 636. Now before the Court are (1) pro se Plaintiff
Xiaohua Huang’s Objections (Dkt. No. 74) to Magistrate Judge Payne’s Order (Dkt. No. 64)
denying Huang’s motion to transfer and (2) Huang’s Objections (Dkt. No. 76) to Magistrate Judge
Payne’s Order and Report and Recommendation (Dkt. No. 65) denying his motion to compel and
recommending that Defendant Huawei’s motion for summary judgment be granted under the res
judicata doctrine.
Huang contends that this case should be transferred to the Northern District of California
because this Court, Magistrate Judge Payne, and the Federal Circuit panel all engaged in fraud in
Huang’s earlier filed case, Huang v. Huawei Techs. Co., 2:15-cv-1413-JRG-RSP (E.D. Tex. Aug.
14, 2015) (the “earlier filed case”). (Dkt. No. 74). Huang further argues that the grant of summary
judgment in the earlier filed case was based on “perjury” committed by Huawei and “fraud”
committed by Magistrate Judge Payne. (Dkt. No. 76). Because of such fraud, Huang contends, the
summary judgment rendered in the earlier filed was not rendered by a court of competent
jurisdiction, rendering the application of the res judicata improper. Id. Huang also agues that the

Appx 101

Case 2:16-cv-00947-JRG-RSP Document 78 Filed 03/18/19 Page 2 of 2 PagelD #: 1663

seventy accused products in the present case are different in name, model, and function from the
seven products alleged in the earlier filed case, indicating that the same cause of action was not
involved in the earlier filed case and the case at hand. Id.
The Court has considered the objections raised by Huang and finds them to be without
merit. All of the arguments raised in the objections were properly considered by the Magistrate
Judge. After de novo review, this Court finds no error in the Order (Dkt. No. 64) denying Plaintiffs
request to transfer this case or the Order and Report and Recommendation (Dkt. No. 65)
recommending that Huawei’s summary judgment motion be granted.
Accordingly, Huang’s Objections (Dkt. Nos. 74 and 75) are OVERRULED, the Order and
Report and Recommendation (Dkt. No. 65) is hereby ADOPTED, and Huawei’s motion for
summary judgment (Dkt. No. 40) is GRANTED in all respects. All pending motions in this matter,
with the exception of Huawei’s motion for sanctions (Dkt. No. 71), are hereby DENIED.

i&'SraMffl

March, 2019.

RODNEY GIL
UNITED STATES DISTRICT JUDGE

Appx 102

Case 2:16-cv-00947-JRG-RSP Document 65 Filed 02/12/19 Page 1 of 12 PagelD #: 1301

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
XIAOHUA HUANG

§
§
§
§

Plaintiff,

§

v.

Case No. 2:16-cv-00947-JRG-RSP

§

HUAWEI TECHNOLOGIES CO. LTD., et
al.,
Defendants.

§
§
§
§

ORDER AND REPORT AND RECOMMENDATION
Before the Court is Defendant Huawei’s motion for summary judgment [Dkt. No. 40],
wherein Huawei argues that Plaintiff Xiaohua Huang’s patent infringement claims are barred by
res judicata and the Kessler doctrine. Huang has also moved to strike an exhibit that Huawei filed
in support of its summary judgment motion and seeks to compel Huawei to file certain exhibits
under seal. [Dkt. No. 43].
BACKGROUND AND PROCEDURAL HISTORY
Huang is the owner of U.S. Patent Nos. RE 45,259, 6,744,653, and 6,999,331. These
patents relate to ternary content-addressable memory (“TCAM”) technology in the semiconductor
chip field. TCAM is a type of memory that can achieve high-speed routing and switching in
networking devices.
In August 2015, Huang filed a patent infringement action against Defendants in this court,
alleging that Huawei infringed the same three patents. Huangv. Huawei Techs. Co., 2:15-cv-1413JRG-RSP (E.D. Tex. Aug. 14, 2015) (“Case 1”). Huang originally brought the complaint on behalf
of himself and his company, CMOS Micro Device, Inc. (“CMOS”). Case 1, [Dkt. No. 1]. Huawei
filed a motion to compel CMOS to obtain counsel, as a corporation cannot proceed pro se. Case

Appx 103

Case 2:16-cv-00947-JRG-RSP Document 65 Filed 02/12/19 Page 2 of 12 PagelD #: 1302

1, [Dkt. No. 8]. In response, Huang filed his First Amended Complaint, dropping CMOS from the
suit. Case 1, [Dkt. No. 12]. Huang then filed a Second Amended Complaint and Third Amended
Complaint. Case 1, Second Am. Compl., [Dkt. No. 16]; Case 1, Third Am. Compl., [Dkt. No. 38].
In his Third Amended Complaint, Huang alleged that Huawei provided solutions for
IP/Carrier Ethernet, Networking & Security, and Cloud Computing & Data Centers, and that
Huawei was selling the following products for those solutions in the United States: (1) High-end
Universal Service Routers NE40E-X16A, NE40E-X8A; (2) Series Universal Service Router
NE40E-X1/X2-M; (3) S9300 Series Terabit Routing Switches; (4) S6300 Switches; (5) S9700
Series Terabit Routing Switches; (6) CloudEngine 12800 SeriesData Center Core Switches; and,
(7) SI2700 Series Agile Switches. Id. at f 16. Huang alleged that these products use embedded
TCAM and or/ TCAM Chips to perform ACL, QoS, VLAN, LPM, and other parallel searching,
filtering, and access control functions. Id. at ][ 17. Huang contended that the TCAM chips came
mainly from Broadcom Corporation and were coded with the Knowledge Based Processor that
infringed the ’259 patent. Id. Huang also contended that the embedded TCAM was used in the
ASIC chips designed by HiSilicon, an alleged division of Huawei, and that the embedded TCAM
infringed the ’653 and ’331 patents. Id. Huawei answered Huang’s Third Amended Complaint.
Case 1, [Dkt. No. 44], Huawei also served Huang with a Rule 11 safe harbor letter, contending
that a reasonable pre-filing investigation would have revealed that no Huawei networking products
sold in the United States had ever contained the HiSilicon chips that were the basis of the
infringement claims under the ’653 and ’331 patents. Case 1, [Dkt. No. 52-2].
Huang sought leave to file a fourth amended complaint, Case 1, [Dkt. No. 55], and moved
to supplement his P.R. 3-1 Infringement Contentions, Case 1, [Dkt. No. 56]. Huang attempted to
add approximately 74 new accused products or products families and to identify 15 additional

Appx 104

Case 2:16-cv-00947-JRG-RSP Document 65 Filed 02/12/19 Page 3 of 12 PagelD #: 1303

Broadcom TCAM chips or TCAM chip families as allegedly covered by the ’259 patent. Huawei
opposed this attempt, arguing that all 74 of the new accused products or product families were a
matter of public knowledge because all accused products, with the exception of five product
families, were publicly disclosed on Huawei’s website before December 1, 2015, the date Huang
served his original Case 1 infringement contentions. Case 1, [Dkt. No. 66]. The Court denied both
of Huang’s motions in July 2016, finding that Huang had not shown good cause to add numerous
new accused products so late in litigation and the fact that claim construction briefing had already
taken place. Case 1, [Dkt. No. 93]. The Court also stayed the case until September 2016, a 60-day
period that allowed Huang to seek assistance of counsel. Id. Huang never hired counsel.
After the Court denied his motion to make a late amendment to his P.R. 3-1 Infringement
Contentions in Case 1, Huang filed the present case against Huawei in this court in August 2016,
alleging infringement of the same patent claims as Case 1 by the same 74 Huawei products he
attempted to add in Case 1. Huang v. Huawei Techs. Co., 2:16-cv-00947-JRG-RSP (E.D. Tex.
Aug. 26, 2016) (“Case 2”). Huang then filed a motion to consolidate his two actions on the Case
1 docket. Case 1, [Dkt. No. 104],
Meanwhile, Case 1 continued to proceed. There, Huawei moved for summary judgment of
noninfringement at the end of the 60-day stay, arguing that Huang failed to identify a triable issue
with respect to alleged infringement of the patents-in-suit. Case 1, [Dkt. No. 105]. Given that
Huang chose not to hire counsel and thus was not able to obtain information from Huawei about
the accused products under the parties’ joint protective order,1 the Court found that Huang did not

1 The protective order provided that certain types of confidential information designated as “attorneys’ eyes only”
would be subject to disclosure only to counsel, including outside counsel and “in-house counsel with no competitive
decision-making authority.” Case 1, [Dkt. No. 33]. The protective order also limited disclosure of information
designated as confidential source code to “outside counsel and up to three (3) outside consultants or experts.” Id.
Because Huang is not an attorney, Huang was prohibited from accessing necessary confidential information. The
Court explained to Huang at a July 27, 2016 hearing that his pro se status would likely impair if not prevent a

Appx 105

Case 2:16-cv-00947-JRG-RSP Document 65 Filed 02/12/19 Page 4 of 12 PagelD #: 1304

raise a triable issue of fact. Case 1, [Dkt. No. 134]. The Court noted that Huang highlighted several
alleged reverse engineering records, but the Court granted Huawei’s motion to strike those records
because Huang failed to produce them during discovery. Id. Thus, the Court granted summary
judgment in favor of Huawei and dismissed Huang’s patent infringement claims on the merits. Id.;
Case 1, [Dkt. No. 146]. Huang filed numerous objections and requests for reconsideration of the
Court’s order dismissing Case 1. On January 12, 2017, the Court entered an additional Order
confirming that all Huang’s claims stood dismissed, found Huang’s motion to consolidate moot,
and directed the parties to desist from further trial preparation. Case 1, [Dkt. No. 169]. Plaintiff
appealed the summary judgment to the Federal Circuit. Case 1, [Dkt. No. 175].
On January 31, 2017, Huawei moved for fees and expert costs under 35 U.S.C. § 285 and
the court’s inherent power. Case 1, [Dkt. No. 179]. Huawei argued that Huang, inter alia, failed to
conduct a pre-filing investigation, failed to conduct formal discovery, filed frivolous motions and
responses, ignored the Court’s rulings, attacked Huawei’s witnesses, and filed a motion asking the
Court to file criminal perjury charges against Huawei. Id. In support of its motion, Huawei
submitted declarations stating that Huang persistently contacted Huawei’s in-house counsel
throughout Case 1, despite having been asked to only communicate with Huawei through their
outside counsel. Case 1, [Dkt. No. 179-1]. Even after Case 1 was dismissed, Huang told Huawei’s
in-house counsel that he would continue filing motions - forcing Huawei to reply and incur further
legal fees. Id. Further, Huang told Huawei’s counsel that he sued Huawei because one of his lawyer
friends told him that if he were to represent Huang in a lawsuit against Huawei, the case would
quickly settle for $1.5 million. Id. Huang said that he decided not to hire an attorney because he
did not want to share revenue with a lawyer. Id. The Court held a hearing and Huang offered no

successful opposition to summary judgment. Case 1, [Dkt. No. 204], Huang responded that he already had all the
evidence he needed to oppose the summary judgment motion.

Appx 106

Case 2:16-cv-00947-JRG-RSP Document 65 Filed 02/12/19 Page 5 of 12 PagelD #: 1305

satisfactory explanation for his litigation conduct. Instead, Huang stated, as he had throughout
Case 1, that Huawei’s witnesses and lawyers were being untruthful and were committing perjury.
Case 1, [Dkt. No. 204]. The Court found Huang’s case exceptional and his litigation conduct to
constitute bad faith and an abuse of the judicial process. Id.2
As to Case 2, Huang filed a Second Amended Complaint on December 30, 2016 without
Huawei’s consent or leave of Court. Case 2, [Dkt. No. 24]. Huang then filed a motion for leave to
file his Second Amended Complaint on January 9, 2017. Case 2, [Dkt. No. 29]. On January 20,
2017, the Court denied Huang’s motion for leave to file the Second Amended Complaint for
Huang’s lack of requisite diligence and good faith. Case 2, [Dkt. No. 34]. The Court also cancelled
its initial Scheduling Conference in light of the Court’s grant of summary judgment in Case 1 and,
because Huawei informed the Court that it would file a motion to dismiss Huang’s First Amended
Complaint based on res judicata or estoppel arising from the dismissal of Case 1, the Court
directed Huawei to file the res judicata motion. Case 2, [Dkt. No. 34].
Huawei moved for summary judgment on Huang’s Case 2 claims on February 9, 2017,
arguing that Huang’s claims are barred by res judicata and the Kessler doctrine based on the
Court’s entry of summary judgment of noninfringement in Case 1. Case 2, [Dkt. No. 40]. The
Court deferred resolution of Huawei’s summary judgment motion and ordered the proceedings
stayed pending the outcome of Plaintiff s appeal in Case 1. Case 2, [Dkt. No. 48]. The Federal
Circuit affirmed the Court’s grant of summary judgment in Case 1 on June 8,2018. Xiaohua Huang
v. Huawei Techs. Co., 735 F. App'x 715 (Fed. Cir. 2018). Following the Federal Circuit’s decision,

2 Huang appealed the Court’s § 285 fees Order several times. See, e.g., Case 1, [Dkt. No. 205]. The Federal Circuit
affirmed the Court’s § 285 fees Order. Case 1, [Dkt. No. 237], Huang has filed a notice indicating that he plans to
appeal to the Supreme Court. Case 1, [Dkt. No. 248],

Appx 107

Case 2:16-cv-00947-JRG-RSP Document 65 Filed 02/12/19 Page 6 of 12 PagelD #: 1306

Huang moved to transfer Case 2 to the Northern District of California. Case 2, [Dkt. No. 61].3 The
Court denied the motion. Case 2, [Dkt. No. 64],
Now that the appeal has concluded in Case 1 and the stay is now lifted in Case 2, Huawei’s
summary judgment motion is ripe for resolution.
SUMMARY JUDGMENT STANDARD
Summary judgment is appropriate when “the pleadings, the discovery, and disclosure
materials on file, and any affidavits show that there is no genuine issue as to any material fact and
that the movant is entitled to judgment as a matter of law.” Fed. R. Civ. R 56(c); Anderson v.
Liberty Lobby, Inc., All U.S. 242, 247 (1986). Aparty seeking summary judgment bears the initial
burden of establishing the absence of a genuine issue of material fact by either (1) presenting
evidence that affirmatively demonstrates the absence of any genuine issue of material fact, or (2)
after adequate time for discovery, demonstrating that “the nonmoving party has failed to make a
sufficient showing on an essential element of her case with respect to which she has the burden of
proof.” Celotex Corp. v. Catrett, All U.S. 317, 322-23 (1986). If the moving party meets this
burden, the nonmoving party cannot defeat summary judgment by resting on mere denials or
allegations, but must set forth specific facts sufficient to raise a genuine issue of fact. Id. at 324. In
examining the record, the court should do so in the light most favorable to the party opposing
summary judgment. Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986).
DISCUSSION
Res judicata, also known as “claim preclusion,” is a mixed question of regional circuit law
and Federal Circuit law. Senju Pharm. Co., Ltd. v. Apotex Inc., 746 F.3d 1344, 1348 (Fed. Cir.

3 In his motion, Huang argued, inter alia, that the Court wrongfully stayed the case, that all “the other cause[s] which
this Court and the Panel in the [Federal Circuit] used are erroneous and not truthful,” and the “judges of this case
should be disqualified for their wrongful conduct and the legal action which Plaintiff Xiaohua Huang will take against
the Judges of this case.” Id.

Appx 108

Case 2:16-cv-00947-JRG-RSP Document 65 Filed 02/12/19 Page 7 of 12 PagelD #: 1307

2014). Courts look to the law of the regional circuit in which the district court sits for guidance as
to res judicata, but whether a particular cause of action in a patent case is the same as or different
from another cause of action has special application to patent cases, and thus courts apply Federal
Circuit law to those issues. Id. Under res judicata, a final judgment on the merits of an action
precludes the parties or their privies from relitigating issues that were or could have been raised in
that action. Allen v. McCurry, 449 U.S. 90, 94 (1980).
Four elements must exist for a claim to be barred by res judicata: (1) the parties in the
subsequent action are identical to, or in privity with, the parties in the prior action; (2) the judgment
in the prior case was rendered by a court of competent jurisdiction; (3) there has been a final
judgment on the merits; and (4) the same claim or cause of action is involved in both suits. Duffie
v. United States, 600 F.3d 362, 372 (5th Cir. 2010). To evaluate the fourth element, courts have
adopted the “transaction test,” which focuses on whether the two cases “are based on the same
nucleus of operative facts.” Houston Prof’l Towing Assoc, v. City of Houston, 812 F.3d 443, 447
(5th Cir. 2016). It is the “nucleus of operative facts, rather than the type of relief requested,
substantive theories advanced, or types of rights asserted that defines the claim.” Id.
The parties’ dispute really centers on the fourth element of the res judicata doctrine, as the
parties are identical, the judgment in Case 1 was rendered here in this court, and Case 1 ’s judgment
was a final judgment on the merits.4 Huawei contends that it is entitled to summary judgment on
the fourth element of res judicata for two reasons. First, both cases assert the same patents and the
same patent claims. [Dkt. No. 40], 10. Second, the pleadings in both cases demonstrate that Huang

4 Huang continues to voice dissatisfaction with the Court by arguing that the Court “apparently only took some of the
fraud statements] and perjured testimony from Defendant’s [summary judgment] motion.” Case 2, [Dkt. No. 41], 12.
Huang contends that the second element is not met because the Court’s Orders in Case 1 lacked fair and competent
jurisdiction process, and the third element is not met because the final judgment in Case 1 was “apparently erroneous.”
Id. Essentially, Huang disputes the findings in Case 1. Given the Federal Circuit’s affirmance of Case l’s summary
judgment motion, the Court finds these contentions moot.

Appx 109

Case 2:16-cv-00947-JRG-RSP Document 65 Filed 02/12/19 Page 8 of 12 PagelD #: 1308

seeks relief based on the same theory of direct infringement. Id.
It is undisputed that both cases assert the same patents and the same patent claims. Indeed,
one of the areas of factual overlap the Federal Circuit considers in patent cases is “whether the
same patents are involved in both suits.” Senju Pharm. Co. v. Apotex Inc., 746 F.3d 1344, 1349
(Fed. Cir. 2014). “Claim preclusion will generally apply when a patentee seeks to assert the same
patent against the same party and the same subject matter.” Id. (citing Kearns v. Gen. Motors Corp.,
94 F.3d 1553, 1557 (Fed.Cir.1996) (concluding that patents asserted again the same party in a
previous action were properly dismissed on res judicata grounds) and Transclean Corp. v. Jiffy
Lube Int'l, Inc., 474 F.3d 1298, 1305 (Fed.Cir. 2007) (noting that two cases involved the same
cause of action because the cases included the same patent and the same accused products)).
The real question in this case concerns the accused products in Case 2. This concern is
resolved by the Court making two inquiries, with both inquiries leading to the same conclusion:
res judicata applies to Case 2, warranting the grant of summary judgment to Huawei.
The first inquiry asks whether Huang could have brought suit on Case 2’s accused products
back when he filed Case 1. “A possible basis for barring the different suit is that the causes of
action should have been litigated together.” Kearns v. Gen. Motors Corp., 94F.3d 1553,1556 (Fed.
Cir. 1996). This inquiry must be answered in the affirmative. All accused products in Case 2, with
the exception of five product families, were publicly disclosed before December 1, 2015, the date
Huang served his original Case 1 infringement contentions. These products were listed on
Huawei’s public website, where technical information about the products and product families
were included. Jinsong Deck, [Dkt. No. 40-1],

4. Even the other five product families were

known in time to have been properly joined in Case 1. Therefore, Huang had an opportunity to
bring suit on all the accused products in Case 1, rather than by piecemeal litigation, but failed to

Appx 110

Case 2:16-cv-00947-JRG-RSP Document 65 Filed 02/12/19 Page 9 of 12 PagelD #: 1309

do so. Huang recognized that the accused products could have been asserted in Case 1 because he
attempted to assert the accused products by seeking to file a fourth amended complaint and to
amend his infringement contentions in Case 1. The Court noted at that time, as it does now, that
Huang failed to show good cause to add so many new accused products so late in litigation. Further,
after the Court denied his belated attempts to assert the accused products, and Huang filed Case
2’s complaint, Huang attempted to consolidate the cases so as to conduct all pretrial matters in one
proceeding. Such actions indicate that Huang could have brought suit on all the accused products
in Case 1, especially since both cases arise from the same nucleus of operative facts. Case 1 was
litigated on its merits and the same issues in Case 2 were previously raised in Case 1, warranting
the application of res judicata. See Kearns, 94 F.3d at 1556.
Of course, the application of res judicata does not turn solely on whether a claim could
have been brought in an earlier action. See AcumedLLC v. Stryker Corp., 525 F.3d 1319, 1325-26
(Fed. Cir. 2008) (finding that res judicata does not a bar a claim solely because it could have been
raised in a prior action between the parties that was resolved by a final judgment on the merits).
The second inquiry is whether Case 1 and Case 2 involve essentially the same accused
products.5 Another area of factual overlap that the Federal Circuit considers in a patent cases
involving res judicata is “the overlap of the product or process accused in the instant action with
the product or process accused in the prior action.” Senju, 746 F.3d at 1349. Indeed, a claim for
patent infringement can only be barred by res judicata if that claim arises from the same
transactional facts as a prior action. Acumed LLC v. Stryker Corp., 525 F.3d 1319, 1326 (Fed. Cir.
2008). “[Ojne of the essential transactional facts giving rise to a patent infringement claim is ‘the
structure of the device or devices in issue.’” Id. (quoting Foster v. Hallco Mfg. Co., 947 F.2d 469,

5 This inquiry is largely the focus of Huawei’s Kessler doctrine argument.

Appx 111

Case 2:16-cv-00947-JRG-RSP Document 65 Filed 02/12/19 Page 10 of 12 PagelD #: 1310

479 (Fed. Cir. 1991)). Therefore, ‘“two claims for patent infringement do not arise from the same
transactional facts unless the accused devices in each claim are essentially the same.’” Acumed,
525 F.3d at 1326 (quoting Foster, 947 F.2d at 479-80). Accused devices are “essentially the same”
where the differences between them are merely “colorable” or unrelated to the limitations in the
claim of the patent. Acumed, 525 F.3d at 1324. The party asserting res judicata has the burden of
showing that the accused devices are essentially the same. Id. “If the products or processes are
essentially the same, then claim preclusion may apply.” Senju, 746 F.3d at 1349 (citing Acumed,
525 F.3dat 1323).
The second inquiry must also be answered in the affirmative because Huawei has met its
burden in in showing that the accused devices in both Case 1 and Case 2 are essentially the same.
Huawei submits Huang’s Case 1 P.R. 3-1 infringement contentions, Case 1, [Dkt. No. 40-5];
Huang’s proposed First Amended P.R. 3-1 Infringement Contentions in Case 1, filed with the Court
on June 9, 2016, Case 2, [Dkt. No. 40-6]; and, Huang’s Case 2 P.R. 3-1 infringement contentions,
Case 2, [Dkt. No. 40-7]. 6 Huawei compares these three documents, noting that the charts in the
infringement contentions “map the exact same claim terms to the accused products in word-forword identical fashion in both Case 1 and Case 2.” Case 2, [Dkt. No. 44], at 5. Huang’s
infringement contentions in both cases, whether both proposed or submitted, indicate that Huang
argues that the accused products infringe in essentially the same way as to the patents-in-suit. Thus,
it appears that the differences between the accused products in Case 1 and Case 2 are not related

6 Huang moves to strike Dkt. No. 40-6, Huawei’s Exhibit 2-B, on the basis that the proposed amended infringement
contentions in Case 1 were denied by the Court. Case 2, [Dkt. No. 43]. This is a not proper ground to strike the exhibit.
Huang also moves to compel Huawei to file this exhibit, along with Huawei’s Exhibits 2-A, Case 2, [Dkt. No. 40-5]
and 2-C, Case 2, [Dkt. No. 40-7] under seal. Case 2, [Dkt. No. 43]. Huang has made no showing that these documents
contain confidential information. Further, Exhibits 2-A and 2-B were previously filed in Case 1, and were not filed
under seal. Huang already sought to have Exhibit 2-C filed under seal, see Case 2, [Dkt. No. 19], but made no showing
for such relief and thus his previous motion to seal was denied, see Case 2, [Dkt. No. 19]. Likewise, Huang makes no
showing now. Therefore, the Court DENIES Huang’s motion to strike and motion to compel. Case 2, [Dkt. No. 43].

Appx 112

Case 2:16-cv-00947-JRG-RSP Document 65 Filed 02/12/19 Page 11 of 12 PagelD #: 1311

to the limitations in the patent claims, warranting a finding that the products are essentially the
same. Acumed, 525 F.3d at 1324.
Huang contends that the Case 1 and Case 2 are not based on the same cause of action
because the accused products are different for three reasons.
First, Huang contends that there are more than 70 new products alleged in Case 2 while
there were only 7 products alleged in Case 1. Case 2, [Dkt. No. 41], 15. This is argument does not
address whether these new products in Case 2 are essentially the same as Case l’s accused
products.
Second, Huang argues that the accused products in Case 2 contain the TCAM chips from
Broadcom and the TCAM IP of eSilicon Corporation, while the accused products in Case 1 did
not contain TCAM chips and TCAM IPs. Id. However, a reading of Huang’s Third Amended
Complaint in Case 1 shows that Huang himself alleged that seven accused products in Case 1 use
embedded TCAM and or/ TCAM Chips. Case 1, Third Am. Compl., [Dkt. No. 38], ]j 17
Third, Huang alleges that the accused products in Case 2 are “essentially different” in
name, content, and function from the accused products in Case 1. Case 2, [Dkt. No. 41], 15. This
argument is difficult to understand, given that Huang’s infringement contentions in both cases track
word for word, indicating that the accused products in Case 2 infringe in the same manner as the
accused products in Case 1. Further, Huang has alleged at least one accused Huawei product family
in Case 2 that was already accused in Case l.7
Without making more than mere denials and unfounded allegations, Huang has not
defeated summary judgment.

7 This product family is the CloudEngine 12800 SeriesData Center Switches.

Appx 113

Case 2:16-cv-00947-JRG-RSP Document 65 Filed 02/12/19 Page 12 of 12 PagelD #: 1312

CONCLUSION AND RECOMMENDATION
The factual overlap between Case 1 and Case 2 leads the Court to conclude that resjudicata
applies to this case as a matter of law. Huang has moved to strike an exhibit submitted in support
of Huawei’s motion for summary judgment and moved to compel Huawei to file certain supportive
exhibits under seal. Case 2, [Dkt. No. 43]. These exhibits are Huang’s Case 1 P.R. 3-1 infringement
contentions, Case 1, [Dkt. No. 40-5]; Huang’s proposed First Amended P.R. 3-1 Infringement
Contentions in Case 1, filed with the Court on June 9, 2016, Case 2, [Dkt. No. 40-6]; and, Huang’s
Case 2 P.R. 3-1 infringement contentions, Case 2, [Dkt. No. 40-7]. This motion is DENIED for
the reasons expressed above. Through these exhibits, as well as Huang’s own arduous litigation
history with this Court, Huawei has shown that there remains no issue of fact and that, as a matter
of law, res judicata applies to Huang’s claims in Case 2. The Court RECOMMENDS that
Huawei’s Motion for Summary Judgment, Case 2, [Dkt. No. 40], be GRANTED.
A party’s failure to file written objections to the findings, conclusions, and
recommendations contained in this report within fourteen days after being served with a copy shall
bar that party from de novo review by the district judge of those findings, conclusions, and
recommendations and, except on grounds of plain error, from appellate review of unobjected-to
factual findings, and legal conclusions accepted and adopted by the district court. Fed. R. Civ. P.
72(b)(2); see Douglass v. UnitedServs. Auto. Ass’n, 79 F.3d 1415, 1430 (5th Cir. 1996) (en banc).
SIGNED this 12th day of February, 2019.

gt.

ROY S. PAYNE
UNITED STATES MAGISTRATE JUDGE

Appx 114

Case 2:16-cv-00947-JRG-RSP Document 64 Filed 01/11/19 Page 1 of 3 PagelD #: 1298

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
XIAOHUA HUANG,

Plaintiff,
v.
HUAWEI TECHNOLOGIES CO. LTD., ET
AL,
Defendants.

§
§
§
§
§
§
§

Case No. 2:16-CV-00947-JRG-RSP

§
§
§

ORDER
Before the Court is Plaintiffs motion to transfer this case to the Northern District of
California. [Dkt. No. 61]. This motion deserves some background.
This case follows an earlier filed case, where in August 2015, Plaintiff filed a patent
infringement case against Defendant in this district. Huang v. Huawei Techs. Co., 2:15-cv-1413JRG-RSP (E.D. Tex. Aug. 14,2015). This Court granted summary judgment in favor of Defendant,
and Plaintiff appealed the summary judgment to the Federal Circuit.
Just one year after filing the August 2015 complaint, Plaintiff filed this case against
Defendant in this court in August 2016, asserting infringement of the same patent claims. Huang
v. Huawei Techs. Co., 2:16-cv-00947-JRG-RSP (E.D. Tex. Aug. 26, 2016). Defendant once again
moved for summary judgment, but the Court deferred resolution of Defendant’s summary
judgment motion and ordered the proceedings stayed pending the outcome of Plaintiff s appeal in
the earlier-filed case. The Federal Circuit affirmed the Court’s grant of summary judgment.
Xiaohua Huang v. Huawei Techs. Co., 735 F. App'x 715 (Fed. Cir. 2018).

Appx 115

Case 2:16-cv-00947-JRG-RSP Document 64 Filed 01/11/19 Page 2 of 3 PagelD #: 1299

Now, having lost the appeal in the earlier-field case, Plaintiff seeks to transfer this case to
the Northern District of California. Plaintiff appears to make two arguments.
First, Plaintiff argues that this case should be transferred to the Northern District of
California on the basis that justice so requires because all assigned judges engaged in a fraud. See
[Dkt. No. 61], 2. However, “judicial rulings alone almost never constitute a valid basis for a bias
or partiality motion.” Liteky v. United States, 510 U.S. 540, 555 (1994).
Second, Plaintiff argues that this case should be transferred to the Northern District of
California on the basis that transfer would be convenient for all parties. [Dkt. No. 61], 2. The venue
statute permits a district court to transfer a case to another district “[f]or the convenience of
parties and witnesses” and “in the interests of justice.” 28 U.S.C. § 1404(a). “[T]he
determination of ‘convenience’ turns on a number of private and public interest factors,” none of
which Plaintiff argues. In re Volkswagen AG, 371 F.3d 201, 203 (5th Cir. 2004). Without having
discussed these factors, Plaintiff cannot meet his good cause burden as required by Fifth Circuit
jurisprudence. In re Volkswagen ofAm., Inc., 545 F.3d 304, 312 (5th Cir. 2008).
Plaintiffs motion is troubling, given that Plaintiff chose to file this case in this district. It
appears that because this Plaintiff has not experienced success in his cases so far, he now seeks to
find a more favorable venue. The decision of whether to transfer venue under § 1404(a) rests
within the sound discretion of the district court. Peteet v. Dow Chemical Co., 868 F.2d 1428, 1436
(5th Cir. 1989). Judicial efficiency by itself counsels heavily against transfer. Absent sound
argument from Plaintiff, the Court finds that this case was filed in this district, and must remain
in this district.

Appx 116

Case 2:16-cv-00947-JRG-RSP Document 64 Filed 01/11/19 Page 3 of 3 PagelD #: 1300

Accordingly, the Court DENIES Plaintiffs venue motion. IT IS FURTHER ORDERED
that the stay in this matter is hereby lifted.
SIGNED this 11th day of January, 2019.

UNITED STATES MAGISTRATE JUDGE

Appx 117

Case 2:16-cv-00947-JRG-RSP Document 52 Filed 06/22/17 Page 1 of 1 PagelD #: 1200

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
XIAOHUA HUANG;

Plaintiff,
v.
HUAWEI TECHNOLOGIES CO. LTD., et
al.,
Defendants.

§
§
§
§
§
§
§

Case No. 2:16-CV-00947-JRG-RSP

§
§
§

ORDER
Before the Court is Plaintiff Xiaohua Huang’s Motion to Reactivate this Case and
Consolidate this Case with Case 2:15-CV-1413. Dkt. No. 51. Mr. Huang has not identified an
adequate basis to lift the stay in this case or to consolidate the case with another action.
Accordingly, the motion is DENIED.

Appx 118

Case 2:16-cv-00947-JRG-RSP Document 48 Filed 03/08/17 Page 1 of 1 PagelD #: 1193

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
XIAOHUA HUANG;

Plaintiff,
v.
HUAWEI TECHNOLOGIES CO. LTD., et
al.,
Defendants.

§
§
§
§
§
§
§
§
§
§

Case No. 2:16-CV-00947-JRG-RSP

ORDER
Before the Court is Huawei’s motion for summary judgment based on claim preclusion and
the Kessler doctrine. Dkt. No. 40. Huawei’s motion is based on the Court’s entry of summary
judgment of noninfringement in related Case No. 2:15-cv-01413, see Dkt. No. 146. Mr. Huang has
filed a notice of appeal in Case No. 2:15-cv-01413, see Dkt. No. 197. Accordingly, the Court will
defer resolution of Huawei’s motion for summary judgment until the appeal in Case No. 2:15-cv01413 is complete.
IT IS FURTHER ORDERED that Case No. 2:16-cv-00947 be stayed pending resolution
of the appeal in related Case No. 2:15-cv-01413. The stay applies to all deadlines and discovery
obligations.

Appx 119

Case 2:16-cv-00947-JRG-RSP Document 34 Filed 01/20/17 Page 1 of 1 PagelD #: 723

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
XIAOHUA HUANG, pro se;

§
§
§
§
§

v.
HUAWEI TECHNOLOGIES CO. LTD.

Case No. 2:16-CV-00947-JRG-RSP

ORDER
Before the Court are pending matters in the above-captioned case. First is Mr. Huang’s
motion for leave to file a second amended complaint (Dkt. No. 29). Having reviewed the motion,
the Court is of the opinion that Mr. Huang has failed to demonstrate the requisite diligence and
good-faith. Accordingly, Mr. Huang’s motion (Dkt. No. 29) is DENIED.
Secondly, in light of the Court’s summary judgment on Mr. Huang’s claims in what
appears to be an overlapping case, i.e., 2:15-cv-01413, the initial Scheduling Conference set for
January 31, 2017 is CANCELED.
Finally, in response to Mr. Huang’s motion to amend his Complaint, Huawei informs the
Court that it will file a motion to dismiss the -947 Complaint based on res judicata or estoppel
arising from the dismissal of the -1413 case. See Dkt. No. 30. Huawei is directed to file any such
dismissal motion within twenty days of this Order. Mr. Huang’s response is due within
fourteen days of service of Huawei’s motion.
The parties are ORDERED to appear on March 8, 2017, at 9:00 a.m., to address
Huawei’s res judicata motion and any other pending matters.

Appx 120

Case 2:16-cv-00947-JRG-RSP Document 28 Filed 01/04/17 Page 2 of 2 PagelD #: 703

after the parties have filed the proposed docket control and discovery orders with the mandatory
provisions intact as previously required above.
Furthermore, it is hereby ORDERED that the following schedule of deadlines is in effect
until further order of this Court:
6 Weeks After
Scheduling Conference

Comply with P.R. 3-3 & 3-4 (Invalidity Contentions)

3 Weeks After
Scheduling Conference

*File Proposed Protective Order and Comply with Paragraphs 1 & 3
of the Discovery Order (Initial and Additional Disclosures)
The Proposed Protective Order shall be filed as a separate motion
with the caption indicating whether or not the proposed order is
opposed in any part.

2 Weeks After
Scheduling Conference

*File Proposed Docket Control Order and Proposed Discovery Order
The Proposed Docket Control Order and Proposed Discovery Order
shall be filed as separate motions with the caption indicating whether
or not the proposed order is opposed in any part.

1 Week After
Scheduling Conference

Join Additional Parties

3 Days After
Scheduling Conference

*File Notice of Mediator

2 Weeks Before
Scheduling Conference

Comply with P.R. 3-1 & 3-2 (Infringement Contentions)

Appx 122

